CERTIFICATE OF COMPLIANCE
Case No. 19-648
Caption: CACI Premier Technology, Inc. v. Suhail
Najim Abdullah Al Shimari; Salah Hasan
Nusaif Jasim Al-Ejaili; Asa'ad Hamza
Hanfoosh Al-Zuba'e
As required by Supreme Court Rule 33. l(h),
I certify that the document contains 2,982 words,
excluding the parts of the document that are
exempted by Supreme Court Rule 33. l(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on September 8, 2020

Record Press, Inc.

Sworn to before me on
September 8, 2020
ALESSANDRA KANE
Notary Public, State of New York
No. 01KA6340521
·
·
·
ond County

